IMPLEMENTATION REVIEW OF REVIEW OF
PROPOSED LEASE PAYMENT RECOVERIES
  NORTHEAST AND CARIBBEAN REGION
   REPORT NUMBER A080179/P/2/R09003
          DATED JULY 24, 2009
     ASSIGNMENT NUMBER A100095

         FEBRUARY 24, 2011
that have been identified and/or verified for the eight leases we reviewed and initiate timely
actions to verify and recoup proposed overpayments for the remaining leases reviewed by PRG.

In August 2009, management issued an action plan detailing the steps they proposed to take to
implement our recommendation. In addition, management volunteered that additional steps had
already been taken to mitigate the occurrence of future lease payment discrepancies; these
additional steps were incorporated into management’s action plan as well.

Objective, Scope, and Methodology

The objective of this implementation review was to determine if management has fully
implemented the steps in their action plan. To accomplish this objective, we:

1) Reviewed Report Number A080179/P/2/R09003, Review of Proposed Lease Payment
   Recoveries, Northeast and Caribbean Region, ,dated July 24, 2009, and all supporting audit
   evidence.
2) Reviewed the action plan, and related documentation dated August 25, 2009, in response to
   the original report.
3) Retrieved and reviewed relevant Pegasys financial records, from the time the original report
   was issued to the present.
4) Requested and reviewed recent Lease Digest Actions and correspondence between PBS and
   the lessors.
5) Calculated CPI adjustments for lease payments going forward from the date of the original
   review, and used them to create a schedule of lease payments based on the contractual
   conditions disclosed.
6) Held discussions with agency personnel.


Results of Review

With two exceptions, management responded to our audit recommendation by implementing the
actions listed on their corrective action plan. Details follow:

Action to be Taken: Contact lessors to request remittance of overpayments and/or real
estate tax receipts.

Regional staff contacted all involved lessors to request remittance of lease overpayments and
have received compensation, in full or in part, for all leases. However, the Region has not yet
contacted the lessor of lease LNJ23234 to attempt to recoup a $6,882 overpayment of real estate
taxes that was detailed in our report. Therefore, this Action Step remains unresolved.

Action to be Taken: Process finance documents to withhold overpayments from rentals
where the lessor has not responded or has refused to remit payment.

None of the involved lessors were unresponsive or refused to remit payment. Regional staff has
processed financial documents to recoup overpayments for all leases, although, as discussed
below, the overpayments identified for lease LNY22885 have not been fully resolved.

                                             -2-
PRG identified a $232,888 lease overpayment attributable to lease LNY22885, predicated on an
annual overpayment of $74,749 through November 20, 2005. We determined that this
overpayment continued beyond this date, resulting in an additional overpayment of $167,941
through February 29, 2008. The Region has recouped the $232,888 identified by PRG, and has
also amended the lease, effective April 1, 2010, to reduce the annual lease amount by $74,749.
However, the Region but has not yet fully resolved the issue of overpayments that occurred from
December 2005 through March 2010.


Additional Observations

As indicated before, in addition to directly addressing our recommendation, management
volunteered that additional steps had already been taken to mitigate the occurrence of future
lease payment discrepancies. We reviewed these additional steps, and offer the following
comments:

o A one time effort will be made…to review all the lease documents in the inventory to capture
  those leases that contain step down rental provisions, or stepped rental increases, and to
  ensure that a STAR project is created for such actions...

    With the action plan, PBS provided lease and rent tracking reports. We verified that these
    reports capture rental increases and decreases and the years in which they are due to occur.


o A tracking system will be created to ensure that lessors submit paid tax receipts in
  accordance with the lease contract provisions so that tax adjustments, whether increases or
  decreases, are performed in a timely manner.

    We were not provided a copy of this tracking system.


o Monthly review of the Negative Net Operating Income report; this report indicates
  discrepancies in revenue vs. expenses, and will provide timely alert when lease rental
  payments exceed revenue.

    We reviewed the Negative Net Operating Income (NOI) report for the 1st quarter of 2010
    and noted that none of the reviewed leases were captured. As such, it appears that this report
    may not be effective for detecting the types of lease discrepancies found by the review.

    Further, Regional management provided us with meeting minutes that explained that they
    will no longer focus on NOI, but instead on Funds From Operations (FFO).


o Each branch will be assigned a contract hire to maintain data integrity...

                                               -3-
        IMPLEMENTATION REVIEW OF THE REVIEW OF
          PROPOSED LEASE PAYMENT RECOVERIES
            REPORT NUMBER A080179/P/2/R09003
                   DATED JULY 24, 2009
              ASSIGNMENT NUMBER A100095

    Action Plan for Review of Proposed Lease Payment Recoveries




                               A-1
    A-2
    A-3
    A-4
                    IMPLEMENTATION REVIEW OF THE REVIEW OF
                      PROPOSED LEASE PAYMENT RECOVERIES
                        REPORT NUMBER A080179/P/2/R09003
                               DATED JULY 24, 2009
                          ASSIGNMENT NUMBER A100095


                                   REPORT DISTRIBUTION

                                                                     Copies

Acting Regional Commissioner, Public Buildings Service (2P)            3

Office of the Chief Financial Officer (B)                              3

Commissioner, Public Buildings Service (P)                             1

Inspector General (J)                                                  3

Assistant Inspector General for Auditing (JA)                          1

Director, Operations Staff (JAO)                                       1

Deputy Assistant Inspector General for Real Property Audits (JA-R)     1

Director, Internal Control and Audit Division (BEI)                    1

Special Agent in Charge (JI-2)                                         1




                                                B-1
